          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




Audit Report

Resolution  of Significant
Facility Contractor        Finding and
                       Acquisition
Investigation Recommendations
Management       of Information
Technology Hardware




DOE/IG-
DOE/IG-0768                             November 2002
                                          June 2007
                            Department of Energy
                                 Washington, DC 20585

                                    J u n e 2 2 , 2007


MEMORANDUM FOR THE SECRETARY

FROM:                   +e
                         Greg ry . n e man
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Facility Contractor
                         Acquisition and Management of Information Technology
                         Hardware"

BACKGROUND

The Department of Energy relies heavily on information technology (IT) to accomplish
its science, weapons, energy supply and environmental mission objectives. In the past
three years, the Department has spent more than $400 million on IT hardware to facilitate
these efforts. Items routinely acquired by the Department included desktop and laptop
computers and associated peripherals, personal digital assistants, and network
infrastructure equipment.

Prior Office of Inspector General audits have disclosed nunlerous problems with the
Department's n~anagementof IT resources. For example, our report on Management of
the Department's Desktop Computer Software Enterprise License Agreements (DOEIIG-
071 8, January 2006) found that the Department spent more than necessary to acquire and
maintain software due to the lack of a complex-wide acquisition and maintenance
strategy. Similarly, our review of Information Technology Support Services at the
Depurtment of Energy's Opemting Contrirctors (DOEIIG-0725, April 2006) determined
that, had a complex-wide acquisition strategy been used to obtain support services, the
Department could have achieved significant savings. Because of its sizeable investment
in this area, we initiated this audit to determine whether the Department had effectively
managed its acquisition and control of IT hardware.

RESULTS OF AUDIT

Our review established that certain Department of Energy facility contractors had not
adequately managed the acquisition and control of IT hardware. A nun~berof contractors
had not consistently taken advantage of opportunities to reduce acquisition and support
costs, addressed security concerns related to certain aging systems, or ensured that
accountability was maintained over sensitive computers and devices. In particular, we
observed that:

        Five of the seven sites we reviewed had not developed or fully implemented
        hardware specifications and brand standards for computers and related
        peripherals, directly contributing to unnecessary expenditures of at least
        $4.7 million over a three-year period;
         Widely divergent hardware replacement cycles contributed to problems ranging
         from supporting outdated computers to replacing equipnient before the end of its
         service life;

         Sites had not always taken advantage of opportunities to achieve volume
         purchase discounts. For example, one contractor acquired computers from 96
         different vendors many without competition; and,
                           -




         Several sites did not track certain sensitive IT equipment, including laptop
         computers and personal digital assistants.

These problems occurred because the Department had not developed a coordinated
approach to IT hardware acquisition, nianagenient, and control. In particular, the
Department had not implemented corporate-level standards for hardware nor had it
required contractors to adopt or adhere to locally-developed standards. Acquisition
strategies for IT hardware, designed to take advantage of savings available through
volume purchases or consolidated buying opportunities, had not been deployed. In
addition, the sites reviewed had not established centralized mechanisms for approving
purchases or adopted a consistent and effective approach for maintaining accountability
over IT hardware.

Without improvenients in the acquisition and control of IT hardware, issues such as those
identified during our review could result in the unnecessary expenditure of funds to the
detriment of program operations. The failure to maintain accountability over computers
and other sensitive assets could also increase the risk of misuse, theft, or other diversion
of Government property. Proper inventory controls are critical to maintaining effective
accountability over information technology hardware, particularly in light of the recent
disclos~~rethat the Department could not account for over 1,400 laptops either lost, stolen
or misplaced over the past six years.

To its credit, the Department had taken action to establish hardware standards at
Headquarters through its Department of Energy Common Operating Environment. In
addition, we noted that certain contractors have worked together to establish purchasing
agreements for selected items of IT hardware. These are positive steps, but additional
action is required. As such, we made several recommendations designed to increase the
efficiency and effectiveness of the Department's hardware acquisition and management
process.

MANAGEMENT REACTION

Management concurred that action is necessary to improve the Department's practices for
acquiring commodity-type IT hardware and indicated that it pIans to take certain actions
relative to the recommendations in our report. In particular, management indicated that
one of the actions to be taken in response to our report will be to develop guidance that
encourages aggregation of requirements for IT hardware intended to lead to cost savings.
In addition, a review will be performed to determine the need for strengthened
requirements over IT asset management.

In separate comments, the National Nuclear Security Administration (NNSA) indicated
that it did not concur with several of our recommendations; however, it provided details
of alternative actions that will be taken which are consistent with our recommendations.
For example, NNSA management noted that its facility contractors recently agreed to
work cooperatively using common procurement tools in the development of complex-
wide acquisition vehicles for comnion commodities. In addition, minimum hardware
configurations developed by the Department will be made available to contractors for
their consideration. Management's comments are included in Appendix 4.

Attachment

cc: Deputy Secretary
    Acting Administrator, National Nuclear Security Administration
    Acting Under Secretary for Energy
    Under Secretary for Science
    Chief Information Officer
    Chief of Staff
REPORT ON FACILITY CONTRACTOR ACQUISITION AND
MANAGEMENT OF INFORMATION TECHNOLOGY HARDWARE

TABLE OF
CONTENTS


  Acquisition and Manaqement of IT Hardware

  Details of Finding .................................................................................................... 1

  Recommendations and Comments .............................................................................. 7


  Appendices

  I . Objective, Scope, and Methodology ...................................................................... 9

  2. Potential Savings .................................................................................................. 1 1

  3. Prior Reports .......................................................................................................   12

  4. Management Comments ...................................................................................... 13
Acquisition and Manaqernent of IT Hardware


Hardware Acquisition   The Department of Energy's (Department) facility
and Control            contractors had not always adequately managed the
                       acquisition and accountability of its infornlation technology
                       (IT) hardware. Although critical to controlling acquisition
                       and support costs, we noted that standards for hardware
                       specifications and brands, acquisition practices, and
                       equipment replacement rates had not been developed or
                       were not completely effective. Controls over
                       accountability for certain conlputers and other sensitive
                       equipment were also inadequate.

                                           Hardware Standards

                       Facility contractors at the seven sites reviewed had not
                       always developed or fully implemented standard hardware
                       specifications - such as brand, processing speed, and
                       memory capacity - for computers and related peripherals.
                       As demonstrated by a recent Department of Defense
                       (DOD) initiative, decreasing the number of hardware
                       brands and configurations can result in significant
                       reductions in acquisition and support costs (cost avoidance
                       at DOD of $53 nillion in 2004 and 2005).

                       At five of seven sites, brand standards had not been fully
                       developed for conlputers and peripherals. Absent such
                       standards - based on our review of purchases made during
                       Fiscal Years (FY) 2003 through 2005 - we found that
                       desktop and laptop computers were acquired from at least
                       70 different manufacturers at the seven sites reviewed. For
                       example, although Lawrence Berkeley National Laboratory
                       (Berkeley) established recommended brands for desktop
                       and laptop conlputers, purchasers did not follow the
                       recommendation for about 62 percent of the computers
                       acquired during FY 2005. As generally accepted by
                       industry officials, elimination of multiple brands of IT
                       hardware has the potential to significantly reduce annual
                       support costs.

                       We also noted that despite having similar missions,
                       standard configurations and the ultimate price paid for
                       computers for the three National Nuclear Security
                       Administration (NNSA) national laboratories reviewed -
                       Sandia, Lawrence Livermore National Laboratory
                       (Livermore), and Los Alamos National Laboratory (Los
                       Alamos) - varied widely. For example, the price of the



Page 1                                                        Details of Finding
         high-end standard configuration of one brand of computer
         ranged from $1,825 at Livermore to $3,743 at Sandia.
         Absent firm standards, average desktop acquisition costs -
         when applied to the approximately 32,000 desktops
         purchased over a recent three-year period amounted to an
                                                    -



         overall variance of about $3.4 million in acquisition costs.

         Problems with adhering to standards were not limited to
         NNSA sites, but also affected organizations managed by
         the Office of Science (Science). For example, while the
         Oak Ridge National Laboratory (ORNL) had established
         configuration standards for desktops and laptops, we
         observed that these standards were rarely used. Even
         though the site Chief Information Officer (CIO) estimated
         that one-half of the employees were candidates for
         standardized computers, we found that nearly all of the 522
         desktop and laptop computers that we reviewed at ORNL
         exceeded current locally established standards. While the
         price of standardized laptops at the site ranged from $1,2 16
         to $1,499, the average price paid was actually $2,246, or 50
         percent more than permitted by ORNL standards.
         Purchases of non-standard computers and devices at ORNL
         resulted in the unnecessary expenditure of about $1.2
         million. Similarly, we noted that the average price paid for
         the recommended brand of desktop at Berkeley was $1,656
         - about 33 percent more than the site's suggested cost for a
         standard computer.

         Additionally, four of the sites reviewed had not developed
         standards for peripherals and acquired a wide range of
         devices, often at disparate prices. For example, Los
         Alamos acquired at least 60 different types of portable
         storage devices, including various flash drives and portable
         music players. The site acquired various types of flash
         drives in FY 2005 with the same storage capacity, but with
         prices that ranged from $68 to $252 per unit, contributing
         to unnecessary expenditures of about $93,000 at the sites
         reviewed in just that one year. At Livermore, brand
         standards for peripherals had not been developed and the
         site acquired at least 17 different brands of printers. In
         contrast, a similar site only utilized four different printer
         brands.




Page 2                                           Details of Finding
                             Acquisition Practices

         Sites reviewed had not always developed and implen~ented
         acquisition standards or centralized mechanisms designed
         to minimize the cost associated with acquiring IT hardware.
         For example, Berkeley officials stated that organizational
         units were not required to compete purchases under
         $10,000, and that they used that authority to acquire
         computers from a variety of different vendors. During the
         three-year period we reviewed, Berkeley purchased desktop
         and laptop computers from at least 96 different vendors - a
         practice that effectively prevented it from taking advantage
         of volume discounts. While ORIVL had established a
         hardware acquisition program, numerous hardware
         purchases were made outside of the system. In particular,
         the site acquired hardware through separate purchase
         agreements and by using credit cards, acquisition
         techniques that were not governed by agreed-upon
         standards and which did not permit the buyer to obtain
         quantity purchase discounts. In contrast, the Y-12 National
         Security Complex (Y-12) required that the CIO review all
         hardware acquisitions to ensure compatibility with existing
         standards and purchase agreements.

         The lack of common acquisition standards or negotiated
         buying opportunities for peripheral devices also contributed
         to unnecessary expenditures. For example, sites reviewed
         spent $1 million more than necessary for computer
         monitors in FY 2005 by paying varying prices for the same
         or similar monitors. We also observed that two sites paid
         between $1 00 and $460 for the same portable storage
         device obtained within a three-month period. These issues,
         similar to those described in several information
         technology-related Office of Inspector General reports,
         highlight the fact that the Department's limited use of bulk
         purchase agreements for IT products and services
         negatively impacts its ability to leverage buying power and
         reduce costs.

                           Hardware Replacenlent

         Despite a FY 2000 Department-sponsored study and
         industry best practices, six of the seven facility contractors
         included in our review had not established standard cycles
         for replacing IT hardware and had widely varying
         frequencies of hardware replacements that frequently
         differed from industry standards. At Y-12, for example, the


Page 3                                           Details of Finding
         current computer replacement frequency was almost 10
         years, more than double the recommended industry
         standard. Site officials estimated that this resulted in 16
         percent of the computers being obsolete, a situation that
         made it difficult for them to control maintenance costs and
         eliminate or reduce security vulnerabilities. In contrast, the
         average replacement rate of a computer at Sandia was three
         years.

         Additionally, the Savannah River Site (Savannah River)
         was the only site reviewed that chose to lease IT hardware.
         While this may be a cost-effective approach to maintaining
         desktop and laptop computers, the approach is not cost
         effective for peripherals such as monitors. In particular, the
         site incurred up to $2 million in excess expenditures over
         the last three years by replacing its computer monitors
         more frequently than necessary. Although industry experts
         estimate a seven year useful life for monitors, Savannah
         River's replacement under the current lease agreement
         occurred every three years, well short of the expected life.
         As noted in the Department-sponsored study, establishing a
         standard technology replacement rate can enhance
         standardization and help optimize costs.

                               Inventory Control

         Despite a number of past problen~sand recommendations
         for corrective actions, our review disclosed that contractors
         were not consistently or effectively maintaining
         accountability over assets. Specifically, not all of the sites
         reviewed tracked computers until disposition. Rather,
         Berkeley and Sandia officials stated that equipment is
         generally removed from their inventory systems after five
         years regardless of whether the hardware was still in use
         and with no consideration for the type of information
         contained on the computers. Such practices increase the
         risk that lost or stolen systems containing sensitive or
         personal information will not be identified during the
         inventory process.

         Thresholds for tracking hardware also varied widely at the
         sites reviewed, including the requirements for tracking
         equipment which could potentially contain sensitive
         information such as desktops, laptops, and personal digital
         assistants. For example, even though Sandia reported
         losses of 249 computers and other high risk devices
         between FYs 2003 and 2005, the Department permitted the

Page 4                                           Details of Finding
                       site to track only those items costing over $1,000. Setting
                       this threshold effectively excluded more than 500
                       con~putersand 3,100 personal digital assistants from
                       inventory tracking. This practice was especially troubling
                       given that the site reported the highest percentage of
                       missing items of any site reviewed and the recent emphasis
                       by the Office of Management and Budget for ensuring
                       security over mobile devices. In addition, at Savannah
                       River, contractors were also not required to account for
                       certain sensitive peripheral equipment if the value was less
                       than $5,000 - more than 10 times the threshold used at
                       most sites.

Hardware Acquisition   These problems occurred because the Department had not
and Control Approach   developed a coordinated approach to facility contractor IT
                       hardware acquisition and control. In particular, corporate-
                       level standards for hardware had not been developed and
                       contractors were not always required to adopt or adhere to
                       locally-developed standards. Additionally, contractors
                       were not required to coordinate hardware purchases, utilize
                       centralized authorities to approve IT purchases, or adopt a
                       consistent approach to maintaining accountability over IT
                       hardware.

                       The Department had not required the development and
                       implementation of either complex-wide or site-specific IT
                       hardware standards. Although standards were developed as
                       part of the Department of Energy Common Operating
                       Environment at Headquarters, they had not been expanded
                       to facility contractors in the field - organizations that
                       account for about 87 percent of the Department's
                       workforce. Similarly, users were not always required to
                       con~plywith existing site standards. For instance, hardware
                       standards were routinely not enforced at ORNL.

                       Furthermore, the Department had not developed and
                       implemented polices requiring coordination of IT hardware
                       purchases both within sites and across the complex to take
                       advantage of opport~initiesfor volun~ediscounts.
                       Specifically, acquisition authority, including IT approval
                       and funding authority, remained decentralized at most of
                       the sites reviewed. For instance, neither the site CIO's nor
                       acquisition officials were generally responsible for
                       monitoring purchases to allow them to identify the types
                       and costs of hardware being acquired. The impact of such
                       practices was observed at ORNL and Berkeley where



Page 5                                                        Details of Finding
                    organizations regularly acquired various hardware using
                    purchase cards and other methods that did not permit
                    buyers to obtain available discounts.

                    Although facility contractors had negotiated agreements for
                    certain products through the Integrated Contractor
                    Purchasing Team (ICPT), sites were not required to use
                    them. For instance, the primary official responsible for
                    overseeing the lCPT stated that it was difficult to obtain the
                    lowest prices from vendors without mandatory participation
                    from all sites because a consistent volunle of purchases
                    could not be ensured. We also noted that the ICPT had not
                    established a complex-wide agreement for a particular
                    brand of hardware despite expenditures of more than
                    $27 million over the past three years. Similar opportunities
                    also existed for establishing agreements for other brands of
                    IT hardware used by the Department. As noted in our
                    recent report on Information Technology Support Services
                    at the Department of Energy's Operating Contractors
                    (DOEIIG-0725, April 2006), significant savings can be
                    realized if the Department develops and implements a
                    complex-wide IT acquisition strategy.

                    Also, inconsistent implementation of inventory control
                    procedures contributed to sensitive equipment not being
                    effectiveIy tracked throughout its lifecycle. Despite the
                    findings and recomnlendations included in our report on
                    Marzugement of Sensitive Equipment at Selecterl Locations
                    (DOEIIG-0606, June 2003), the Department permitted field
                    sites to set their own thresholds for the type of hardware
                    being inventoried. Although Department policy stresses
                    the importance of controlling sensitive items such as
                    desktops, laptops, and personal digitaI assistants regardless
                    of value, the policy also permits local officials to exclude
                    such highly attractive items from inventory procedures,
                    even though these items can be easily pilfered and have the
                    capability to contain significant amounts of sensitive
                    information. Conflicting policy such as this makes it
                    difficult to ensure that sites are maintaining effective
                    control over attractive hardware

Opportunities for   Without improvenlents, the Department will continue to
Savings             spend more than necessary acquiring IT hardware and face
                    difficulty ensuring accountability over certain high-risk
                    equipment. Specifically, the Department could potentially




Page 6                                                      Details of Finding
                  realize savings of about $16.6 million over the next five
                  years at the sites reviewed by better controlling hardware
                  costs and implementing standards for certain equipment
                  (see Appendix 2 for details). The Department also had an
                  increased risk of unidentified theft of hardware and
                  infornlation by not requiring accountability for all highly
                  attractive items, such as less expensive desktops and
                  laptops, personal digital assistants, and certain other IT
                  hardware. With the potential for significant cost savings
                  and improved accountability, we believe it is vital that the
                  Department act to more effectively manage its hardware
                  acquisition and control processes across the complex.


RECOMMENDATIONS   To address the issues identified in this report, we
                  recommend that the Administrator, NNSA, and the Under
                  Secretaries for Energy and Science, coordinate with the
                  Department's and NNSA's Chief Information Officers to:

                      1. Develop and implement hardware standards and
                         related replacement policies, as appropriate, and
                         utilize such standards as a basis for streamlining
                         acquisitions;

                     2. Ensure that hardware purchases are coordinated
                        between Headquarters and field sites, to include
                        consideration of enterprise agreements, where
                        appropriate;

                     3. Develop and implement consistent asset
                        management policies for maintaining accountability
                        over IT hardware; and,

                     4. Implenlent mechanisms to effectively monitor and
                        control the cost of IT hardware purchases.


MANAGEMENT        Management concurred that action is necessary to improve
REACTION          the Department's practices for acquiring commodity-type
                  IT hardware and indicated that it plans to take certain
                  actions relative to the recommendations in our report.

                  Specifically, the Department plans to develop guidance that
                  encourages aggregation of requirements for IT hardware
                  intended to lead to cost savings through economies of scale.
                  Management also plans to explore the estabIishment of



Page 7                                Recommendations and Comments
           enterprise agreements for IT hardware that can be utilized
           by facility contractors. In addition, management agreed
           that accountability must be maintained over IT hardware
           through consistent asset management and noted that a
           review will be performed to determine the need for
           additional policy developn~entand implementation relevant
           to this area.

           The NNSA indicated that the Department's CIO established
           a desktop minimum hardware configuration that will be
           made available to contractors for their consideration.
           However, NNSA officials did not agree that implementing
           universal hardware standards complex-wide will
           necessarily result in cost benefits. NNSA management also
           noted that its facility contractors recently agreed to work
           cooperatively using common procurement tools in the
           development of complex-wide acquisition vehicles for
           common commodities. Officials believed that this effort
           will assist in monitoring and controlling the costs of IT
           hardware. In addition, management indicated that
           consistent policies are in place for maintaining
           accountability over IT hardware.

AUDITOR    Management's comments are generally responsive to our
COMMENTS   recommendations. We are encouraged that the Department
           plans to explore opportunities for establishing IT hardware
           enterprise agreements, as we continue to believe that such
           agreements with certain vendors will assist in reducing the
           overall cost of acquisition.

           We are hopeful that the NNSA's new strategic sourcing
           effort could, when completely implemented, reduce overall
           costs of IT hardware acquisition. We disagree, however,
           with the NNSA's assertion that developing and
           implementing hardware standards will not necessarily lead
           to cost savings. As noted in the body of the report, we
           identified several examples of cost savings that could be
           achieved through the development and application of
           common standards. We also disagree with the NNSA's
           assertion that it has implemented consistent policies for
           maintaining accountability over IT hardware. Specifically,
           as noted in the report, Sandia was permitted to exclude
           certain sensitive equipment from its inventory process, a
           practice that is inconsistent with other NNSA sites
           reviewed.

           Management's comments are included in their entirety in
           Appendix 4.


Page 8                                                  Comments
Appendix 1


OBJECTIVE     To determine whether the Department of Energy (Department)
              had effectively managed its acquisition and control of
              information technology hardware.


SCOPE         The audit was performed between December 2005 and March
              2007 at Department Headquarters in Washington, DC, and
              Germantown, MD; the Lawrence Livermore National
              Laboratory, Livermore, CA; the Lawrence Berkeley National
              Laboratory, Berkeley, CA; the Oak Ridge National Laboratory
              and the Y-12 National Security Complex, Oak Ridge, TN; the
              Sandia National Laboratories and the National Nuclear
              Security Administration (NNSA) Service Center, Albuquerque,
              NM; and the Savannah River Site, Aiken, SC. We also
              obtained information from the Los Alanios National
              Laboratory, Los Alamos, NM.


METHODOLOGY   To accomplish our objective, we:

                     Reviewed applicable laws and regulations pertaining to
                     acquisition and maintenance of information technology
                     hardware, as well as guidance issued by the Office of
                     Management and Budget;

                     Reviewed reports issued by the Office of Inspector
                     General ;

                     Reviewed numerous documents related to the
                     Department's management of hardware acquisition and
                     maintenance activities:

                     Held discussions with program officials and personnel
                     from Department Headquarters and field sites reviewed,
                     including representatives from the Offices of the Chief
                     Information Officer, Environmental Management,
                     Office of Science, and Fossil Energy, as well as NNSA;
                     and,

                     Reviewed the Government Performance and Results
                     Act of 1993 and determined if performance measures
                     had been established for managing hardware
                     acquisition.



Page 9                            Objective, Scope, and Methodology
Appendix I (continued)


                    The audit was conducted in accordance with generally accepted
                    Government auditing standards for performance audits and
                    included tests of internal controls and compliance with laws
                    and regulations to the extent necessary to satisfy the audit
                    objective. Accordingly, we assessed intemal controls
                    regarding the acquisition and maintenance of hardware across
                    the Department. Because our review was limited, it would not
                    necessarily have disclosed all internal control deficiencies that
                    may have existed at the time of our audit. We also assessed
                    perfomlance measures in accordance with the Governnzent
                    Performance and Results Act of 1993 regarding acquisition and
                    maintenance of software. We found that none of the seven
                    field sites visited had established measures specific to
                    achieving cost savings associated with hardware acquisition.
                    While we did not rely solely on con~puter-processeddata to
                    satisfy our audit objective, we confirmed the validity of such
                    data, when appropriate, by reviewing supporting source
                    docun~entssuch as contracts and invoices.

                    The Office of the Chief Infornlation Officer and the NNSA
                    elected to waive the exit conference.




Page 10                                   Objective, Scope, and Methodology
Appendix 2


                                               POTENTIAL SAVINGS


To determine potential savings relevant to standardizing information technology (IT)
hardware across the Department of Energy (Department), we compared the average costs
paid for desktops and laptops at the three National Nuclear Security Administration
laboratories reviewed, as well as the two Office of Science laboratories reviewed. Based on
our calculations, we determined that the sites could save about $7.9 million over the next five
years if hardware standards are implemented at sites with similar operational functions. In
addition, had the Oak Ridge National Laboratory enforced standards for desktops and laptops
for only one-half of its users, we determined that savings of $2 million could be realized.
Further, we found that the development and implementation of standards for certain portable
storage devices could result in savings of $464,275.

In addition, we calculated the savings that could be realized from effectively managing
acquisition of 1T hardware. Specifically, we reviewed information provided by Savannah
River Site and compared this to industry estimates relevant to monitor life-cycles. Based on
our review, we determined that the site could save about $1.1 million over the next five years
by purchasing computer monitors rather than leasing new ones every three years.
Additionally, we detennined that the sites reviewed could save about $5 million over the next
five years acquiring computer monitors at the lowest prices available through other existing
agreements.

The table below details the possible savings the Department could realize over the next five
years.



                      Product
                                                     Identified Annual
                                                          Savings
                                                                                              Potential Savings
                                                                                                  (5 years)                I
     Hardware Standards Savings
                                     -
                                                 ,   --            $1,583,659         --
~           N Standardization
                     L                                              $409,457                                  $ 2 , 0 4 7
L      Portable
       -   -storage devices                      I                    $92,855    1    p   p    p   p   p
                                                                                                                $464,2751
                                                                                                                -


           Subtotal
b e n t - R i t e d savingsp
1       Savannah River Monitor Lease
                                  -  -
1       Monitor Purchases                                                                                     $5,000,045   1
     -Subtotal
      -                                                                                                       $6,143,737
1    TOTAL                 --                    1              $3,314,718       1-                        * 16,573,593
    * Reflc~ctsonly potentic11.sc~vitlg.sc~t limitr(1 nurt~berof the sites reviewed.
                                          (I                                              We \$'ere unc~hleto calciilate
    Depc~rtmrnt-widesnving.~.




    Page 11                                                                                                Potential savings
Appendix 3


                                    PRIOR REPORTS

Office of Inspector General Reports

   Information Technology Support Senices at the Department of Energy's Operating
   Contractors (DOEJIG-0725, April 2006). The Department of Energy (Department)
   continues to face challel~gesrelated to contractor procured or fumishcd infom~ation
   technology (IT) support services. The Department had not established a comprehensive
   framework to provide a corporate approach to providing IT support services that included
   contractor-managed sites. Furthermore, the Department did not require contractors to
   adopt other available methods for reducing costs such as coordinating with established
   consortium buying groups to consolidate demand and obtain volume discounts. Without
   improvements, the Department will be unable to realize potential cost savings at
   numerous contractor-managed sites.

   hfunugentent of the Departmetzt's Desktop Compilter Softwure Enterprise License
   Agreements (DOEJIG-0718, January 2006). The Department had not adequately
   managed the acquisition and maintenance of desktop computer software licenses. While
   it did establish several enterprise agreements, it had not developed a complex-wide
   desktop software acquisition and maintenance strategy. Without improvements focused
   on increasing software management effectiveness, the Department may be unable to
   realize savings of at least $3.2 million over the next five years.

   Munagement Ch~lllengesat the Department of Energy (DOEIIG-0748, December 2006).
   The Office of Inspector General (OIG) identified seven significant management
   challenges facing the Department, including cyber security. In addition, the OIG
   identified a "watch list" of emerging issues that warrant continued attention. The report
   noted that although the Department had taken a number of positive actions in Fiscal Year
   2006 relevant to cyber security, weaknesses still existed relating to establishing a
   complex-wide inventory of information systems and implementation of an effective
   certification and accreditation process.

   Developmetzt and Implementation o f the Department's Enterprise Architecture (DOEIIG-
   0686, April 2005). The Department had not completely defined its current or future
   information technology requirements, such as desired systems, supporting applications
   and hardware, and technology standards. Without improvements, the Department may be
   unable to implement an effective corporate approach for managing ill formalion
   technology investments.

   M~~ttugemetlt o f Sensitive Eyuiprnet~tat Selected Locutiotts (DOEJIG-0606, June 2003).
   Management at specific sites was able to locate virtually all sensitive equipment selected
   during the review. However, Department officials had not ensured compliance with local
   guidance and best practices pertaining to control, tracking, and protection of sensitive
   property by contractors. Without improvements sites remain susceptible to misuse, theft,
   or other diversion of Government property.


Page 12                                                                       Prior Reports
Appendix 4




                                      Department of Energy
                                        Washington. DC 20585


                                            May 3 1.2007



    MEMORANDUM POR RICKEY R. HASS
                   ASSISTANT INSPECTOR GENERAL
                     FOR FINANCIAL, TECHNOLOGY AND
                     CORPORATE AUDITS

    FROM:                   THOMAS N. PYKE. JR.    .>- .-
                            CHIEF INFORMATION   OFFICER

    SOBJ EC'I':             Itesponse to lnspector Gewral's DraR Report, A06TG072, Facility
                            Contractor Acquisition and Management o f Infornution Technology
                            Hardware


   The Department o f Energy has reviewed the Inspector General's Draft Report, A06TCiO22,
   Facility Contractor Acquisition a ~ Managerncnt
                                       d           of Infornlat ion Technology Hardware, dated
   March 23. 2007.

   According to the Office o f the Inspector General's (OIG) audit results stated in this Drafl Repo~t.
   certain facility contractors have not adcquately managcd the acquisition and control o f IT
   hardware. The OIG concluded that the Department has not developed a coordinated approach to
   IT hardware acquisition, managenlent and control. We appreciate the OIG's recognition that the
   Departnlent has taken actions to establish hardware standards for headquarters, through the
   Department o f Encrgy Common Opcrating Environment, DOECOE.

   We concur that action is necessary to guidc the Department to improve its practices for acquiring
   commodity-type IT hardware, such as personal computers and monitors. The Office o f the Chicf
   Information Officer (OCIO) plans to develop guidance for the Department that encourages
   aggregation o f requirements for such quipment, for each site and across sites whcre possible.
   The guidance will focus o n steps that can be taken to benefit fiom an economy o f scale, where
   practical, whilc meeting user requirements. In addition, thc guidancc will provide input to the
   acquisition process that will assist in making IT hardware refresh decisions based on a i l l
   understanding o f the life cycle factors that should be considered to ensure acceptable long-term
   performance at lowest long-term cost of ownership. In developing this guidance. OClO intends
   to work closely with the National Nuclear Security Administration (NNSA) Administrator, the
   Under Stxretaries for Encryy and Sciencc, and the Office of Management.




Page 13                                                                         Management Comments
Appendix 4 (continued)




            REC'OMMENDATIONS

           R e c o m m e n d a t i o ~1:~ 'The OIG recommends that the Administrator. National Nuclear Security
           Administration (NNSA) and the Under Secretaries for Energy and Scicnce. coordinate with thc
           I)epa~.tnlent'sC I O and t l ~ eNNSA CIO to develop hardware standards and related refresh
           policies. as appropriate.

           .Management 1)ecision: 0 C 1 0 will develop guidance for t h e D e p a r t m e n t t h a t encourages
           aggregation of r e q u i r e m e ~ ~ftos r such equipment, intended to lead t o cost savings through
           economies of scale wliere practical.

           'The Ollice o f the Chief Information Officer (OCIO) plans to develop guidance, working closcly
           with the NNSA Administrator, the Under Secretaries for Energy and Science, and the Office o f
            Management that encourages aggregation of requirements for commodity-type IT l~ardware
           equipnlent, for each site and across sites, where possible, so steps can be taken to benefit from
           economies o f scale in acquisition and support, where practical, while meeting user requirements.
            In addition, the guidance will address I T hardware refresh decisions based on a full
           understanding of the life cycle factors that should be considered to ensure acceptable long-term
           performance at lowest long-term cost ofownership. The guidance will be prepared in thc
           contcxt o f the Department's Enterprise Architecture management process. O C l O ' s intent is to
           completc preparation o f t h i s guidance within the next six months.

           R e c o n l n ~ e ~ ~ d a t 2:
                                       i o nThe 0 1 G recommends that the Administrator, NNSA and the Under
           Secretaries for Energy and Scicncc, coordinate with the Director, Office of Management; the
           NNSA Scnior Procure~ncntExecutive; and the Department's and NNSA's Chief Infor~ilation
           Officers to iniplcment hardware standards and related rcfrcsh policies, and utilize such standards
           a s a basis for streamlining acquisitions

           M a n a g e m e n t Decision: OCIO will develop guidance for t h e D e p a r t m e n t t h a t encourages
           aggregation of r e q u i r e m e n t s f o r such equipment, intended t o lead t o cost savings t h r o u g h
           economies of scale where practical.

            I'ha planncd guidance is intended to support streamlined acquisition ofcommodity-type I T
           hardware, especially in the field, without unnecessarily constraining such acquisitions by spcc~fic
           standards that could quickly b e c o n ~ cobsolctc in such a fast-moving technological area. Special
           consideration will also be given to the dynamics o f marketplace pricing for acquisition o f
           comnlodity-type IT hardware products to ensure that the Government is able to take advantage of
           marketplace reduc~ionsin price that sometimes occur in a relativcly short time period for these
           types o f products. Using this guidance, the NNSA Administrator and the Undcr Sccretariss for
           Energy and Science would be in a better position to provide direction through appropriate
           contractual means to improve acquisition o f such equipment by their field organizations.

           R e c o n ~ r n e n d a t i o n3: .l'hc 0 1 G recommends that the Adniinistrator, NNSA and thc Undcr
           Secretaries lor Energy and Science. coordinate with the Director, OVfice of Management; the
           NNSA Senior Procurement Executive; and the l)epartment's and NNSA's Chief Information




Page 14                                                                             Management Comments
Appendix 4 (continued)




            Otficer to ensure that hardware purchases are coordinated between Headquarters and field sitcs,
            to include consideration o f enterprise agreements, where appropriate.

            M a r ~ n g c r n c n Decision:
                                  t         O C l O will develop g u i d a n c e f o r t h e D e p a r t m e n t t h a t encourages
            aggrcgatiun o f r e q u i r e m e n t s f o r s u c h e q u i p n ~ e n t .intended to lead t o cost savings t h r o u g h
            economics of' scale w h e r e practical.

            We believe that the developn~entand use ofappropriate guidance will motivate improved
            acquisition practices at headquarters and at field sites for c o n ~ m o d i t y - t w eIT hardware, but that
            it is unlikcly that enterprise agreements will have the same positive effect on reducing
            commodity-type 17- hardware costs as d o enterprise software agreements, including Sn~artBuy.
            This conccrn is raised because o f expected practical problenls o f establishing and maintaining
            effective agreements in thc face o f Vast-changing technology and resulting continual
            improvenicnts in performance/cost in this marketplace. O C l O will. however. explore the
            possible use o f enterprise agreements for commodity-type IT hardware similar to those in place
            lor sofiwarc, in which the cntcrprise agrcc~nentswould be available for consideration by DOE
            licility contractors, a s appropriate, to meet their requirements.

            R c c o n ~ n ~ e r ~ d a t4:
                                       i o nThe 0 1 G recommends that the Administrator, NNSA and thc Under
            Secretaries for Energy and Science, coordinate with the Director, Office o f Management; the
            NNSA Senior Procure~ncntExecutive; and the Department's and NNSA's Chieflnformation
            Officer to develop and implement consistent asset management policies for maintaining
            accountability over IT hardware

            ~ M a n a g e n l c n tDecisior~: C o n c u r

            The Department agrees it must nwintain accountability over I T hardware through consistent asset
            management policies. The Draft Report indicates that several sites have not maintained
            accountability Ibr a substantial volume o f IT hardware through consistent asset management, in
            c o n ~ p l i a n c ewith Departmental policy.

            The Dcpartment agrccs that an asset management challenge exists arising from a failure to
            comply with existing policy. The Depart nrent believes that its asset management policies for
            maintaining accountability ovcr IT hardware are adequate, based upon the results of'thc ( l l G
            audit. However, compliance remains an issue. The NNSA Admillistrator and the Under
            Sccretaries for Energy and Science in coordination with the Department's and NNSA's Chief
            Intormation Officers. in consultation with the NNSA and DOE Senior Procurement Executives,
            will perform a review to determine any need for additional policy developnrent and
            implementation, and take neccssary corrective actions to ensure compliance with DO]; Property
            Management policy.

            l l c c o m n r e n d a t i o r ~5: T h e O1G recommends that the Administrator, NNSA and the Lndcr
            Secretaries for Energy and Science, coordinate with the Director, Offlce ot' Management; the
            NNSA Senior Procurement Executive; and the Department's and NNSA's Chief Information
            Ofiicers to implemenl mechanisnrs to effectively monitor and control the cost o f IT hardware.




Page 15                                                                             Management Comments
Appendix 4 (continued)




            ;Managenlent 1)ccision: C o n c u r

            'l'he development and application o f the planned guidance that encourages aggregation o f
            requirenlents Ibr commodity-type 1'1' hardware equipment is intended to provide cost savings
            through economies o f scale where practical. The NNSA Adrninislrator and lhe Under
            Secretaries for Energy and Science will coordinate with the Deparlment's and NNSA's Chief
            Information Officers in consultation with the NNSA and DOE Senior Procurement Executives.
            to review current policies, processes, and procedures for acquisition o f comrnodiry-type 11'
            hardware, a s well a s best practices within the D0b:COE Program and other 1.1. support programs,
            to determine if additional actions are indicated.




Page 16                                                                 Managenlent Comments
Appendix 4 (continued)




                                       Department of Energy
                                National Nuclear Securlty Administration
                                         Washington, DC 20585

                                            M a y 7 , 2007



             .MEMORANDUM FOR                Rickey R. Hass
                                            Assistant Inspector Gencial
                                              for ~inancial,Technology, and Corporate Audi~s

             FROM:                          Associatec.Administrator
                                            Michael     K
                                                        &
                                                        F
                                                        U
                                                        @
                                                        I&-

                                               For Management and~drninistration

             SUBJECT:                       Comments to Drat? Report on Contractor
                                            Acquisition and Management of Momation
                                            Technology Hardware, A06TG022


             T h e National Nuclear Security Administration (NNSA) appreciates the
             opportunity to review the Inspector General's (IG) draft report, "Facility
             Contractm Acquisition and Management of Information Technology
             E3ardwarc." We understand that the IG conducted this audit to determine
             whether we had effectively managad our acquisition and control of
             Information Technology (IT) hardware.

             NNSA offers the following comments to the report and the corresponding
             recommendations:

             To address the issues identified In this report, we recommend that the
             Administrator, NNSA and the Under Secretaries for Energy and
             Science, coordinate with the Department's CIO and the NNSA CIO
             to:

                 1.   Develop hardware standards m d related refresh policies, as
                      appropriate.

             NNSA does not concur with the recommendation. If the rccornmendation
             i s directed towards t l ~ eFederal establishment, then the Department's Chief
             Information Officer is already taking the actions that are being
             recommended. A complex-wide desktop minimum hardware standard
             configuration i s established. The documentation o f the Federal standard
             desktop hardware standard configuration will be made available to
             contractors as a tool for their consideration in determining the most
             efficient and effective method in determining the overall Teast cost
             approach for that part of the contractor's operations that support




Page 17                                                               Management Comments
Appendix 4 (continued)




              performance objectives. NNSA does expect our contractors to perfonn
              sound procurement practices including the assessment of commodities for
              the best procurement method. In fact, NNSA M&O contractors recently
              signed a~mernorandumof understanding whereby they agreed to work
              cooperatively using common procurement tools in the development of
              complex-wide acquisition vehicles for common commodities.

              We also recommend that the Administrator, NNSA and the Under
              Secretaries for Energy and Science coordinate with the Director,
              Office of Management; the NNSA Senior Procurement Executive; and
              the Department's and NNSA's Cbief Information Officers to:

              While the wording of the recommendation is correct, NNSA believes that
              the recommendation, in this case. should be directed towards the major
              program elements so that the desires of the major program elements are
              not discounted. T h e references to the Office of Management, Senior
              Procurement Executive and Chief Information Officers can, therefore, be
              deleted. It is the major program elements that have the budgetary
              authority and management and oversight of the contract instruments.

                  2.   Implement hardware stsndards and related refresh policies, as
                       appropriate, and utilize such standards as a basis for
                       streamlining acquisitions;
              NNSA has taken the approach that a performance measure in NNSA
              contracts that rewards the contractor for good business practices will lead
              to more efficient, effective acquisitions regardless of the establishment of
              standards. The establishment of standards has to be written at such a level
              to allow individual sites the latitude to exercise IT procurements with
              small businesses or participate in strategic sourcing. To establish
              standards with any less flexibility means that cost benefits may not be a
              reality. NNSA does not agree that implementing universal hardware
              standards complex-wide will necessarily result in cost benefits or even act
              as a basis for streamlined acquisitions. Adherence to sound business
              practices following the concepts of strategic sourcing as outlined in our
              contractor's memorandum of understanding certainly will realize cost
              benefits

                 3.    Ensure that hardware purchases are coordinated between
                       Headquarters and field sites, to include consideration of
                       enterprise agreements, where appropriate;

              M&O subcontract consents are performed by each NNSA Site Office if
              the specific acquisition meets the established thresholds for subcontract
              reviews. HCA subcontract consent is required for larger subcontracts.
              NNSA expects each M&O to utilize strategic vehicles wherever possible.
              The memorandum of understanding between all NNSA M&O's will




Page 18                                                            Management Comments
Appendix 4 (continued)




             facilitate the creation and utilization of complex-wide acquisition vehicles
             in addition to those developed by the ICPT and all M&07shave the
             requirement to participate in complex-wide strategic sourcing as part of
             their performance evaluation. Further wordination and review at the
             Headquarters level is not necessary.

                   4.   Develop and implement consistent asset management policies
                        for maintaining accountability over IT hardware; and,
             NNSA has consistent policies in place for maintaining accountability over
             IT hardware. Since asset management is an integral step of Supply Chain
             Management, each of NNSA's contractors have approved acquisition and
                      management (which includes disposition)-systems. These
             systems are amroved bv the Federal estabhshrnent and are reviewed.
             wdited, and&; tested on a scheduled basis.
                   5.   Implement mechanlums to effectively monitor and control the
                        cost of IT hardware purchases.

             This recommendation gives the reader the impression that control of costs
             must occur centrally. That would put NNSA's contractors into a
             'compliance' environment when we are, in fact, moving into a Contractor
             Assurance Systdmanagcment of risk environment. We believe that
             there will be a logical progression into cost effectiveness, cost eficiency
             as long as our contractors realize that it is beneficial to them to implement
             good business practices even if it means working with other laboratories
             and production facilities. NNSA has developed visibility into subcontract
             spend data and has begun to utilize the data to work hand-in-hand with the
             M&O contractors to identify commodities for strategic sourcing.

             Should you have any questions related to this response, please contact
             Richard Speidel. Director, Policy and Internal Controls Management.

             cc:        David Boyd, Senior Procurement Executive
                        Linda Wilbanks, Chief Information Officer
                        Karen .Boardman, Director, Service Center




Page 19                                                               Management Comments
                                                             IG Report No. DOEIIG-0768

                       CUSTOMER RESPONSE FORM

The Office of Inspector Gencl-al has a continuing interest in improving the usefulness of
its products. We wish to make o11r reports as responsive as possible to our customers'
requirements, and, thcreforc. ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
rcports. Plcase include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this rcpoi-t'?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing correct; ve actions?

3. What format. stylistic, or organizational changes might have made this report's
   overall messagc more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5 . Please include your name and telephone number so that we may contact you should
    we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail i t to:

                           Office of Inspector General (IG- I)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.ener~y.gov

  Your comments ~ l o u l dbe appreciated and can be provided on the Customer Response Form.
